MEMORANDUM TO:               Chairman Meserve



FROM:                        Hubert T. Bell/RA/
                             Inspector General


SUBJECT:                     MEMORANDUM REPORT: REVIEW OF NRC’S
                             IMPLEMENTATION OF THE FEDERAL MANAGER’S
                             FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 2000
                             (OIG-01-A-07)

Attached is the Office of the Inspector General’s (OIG) memorandum report titled, Review of
NRC’s Implementation of the Federal Manager’s Financial Integrity Act [FMFIA] for Fiscal Year
2000. OIG found that, for FY 2000, NRC complied with FMFIA. OIG’s report also notes that
NRC continues to have two material internal control weaknesses. The first is the lack of
managerial cost accounting, and the second is inadequate controls over the license fee
development process. During FY 2000, the agency made progress and resolved a significant
aspect of the cost accounting deficiency.

On February 14, 2001, The Executive Director for Operations and the Chief Financial Officer
responded to our draft report and disagreed that the issues presented are material
weaknesses. The response is included in its entirety at Attachment I. OIG will continue to
report these issues as material weaknesses until the agency implements corrective actions.
Because NRC is already pursuing resolution of these issues, this report contains no
recommendations.

BACKGROUND

The FMFIA was enacted on September 8, 1982, in response to continuing disclosures of waste,
loss, unauthorized use, and misappropriation of funds or assets associated with weak internal
controls and accounting systems. Congress felt such abuses hampered the effectiveness and
accountability of the Federal Government and eroded the public's confidence. FMFIA requires
Federal managers to establish a continuous process for evaluating, improving, and reporting on
the internal controls and accounting systems for which they are responsible. FMFIA also
requires that, each year, the head of each executive agency (subject to the FMFIA) shall submit
a report to the President and Congress on the status of management controls and financial
systems that protect the integrity of agency programs and administrative activities. NRC makes
its FMFIA assessment and report in its annual Accountability Report.
Office of Management and Budget Circular A-123, Revised, Management Accountability and
Control, is the implementing guidance for FMFIA. The term "internal controls," as envisioned by
the FMFIA, is synonymous with "management controls" and encompasses program and
administrative areas, as well as the accounting and financial management areas. NRC
Management Directive 4.4, Management Controls, is the agency’s implementing guidance for
FMFIA and Circular A-123.

RESULTS

NRC complied with FMFIA requirements for FY 2000. Although NRC is not reporting any
material weaknesses, OIG will continue to report two weaknesses: (1) the absence of a
managerial cost accounting process, and (2) inadequate controls over NRC’s license fee
development process. These are the same material weaknesses referenced in OIG’s reports
on FMFIA1 and FY 1999 financial statements2.

In FY 1999, the managerial cost accounting weakness also included an inability to aggregate
pay transactions to the strategic arena level. In FY 2000, the agency developed an interim data
collection method that resolves this aspect of the material weakness.

OIG first reported the lack of managerial cost accounting as a material weakness in the reports
on FMFIA3 and FY 1998 financial statements.4 NRC is actively pursuing a resolution to this
issue. However, OIG will continue to report it as a material weakness until NRC successfully
implements managerial cost accounting.

Although NRC advised OIG that the agency took corrective actions for NRC’s license fee
development process, these actions were not completed until the beginning of FY 2001. As a
result, the condition remained in effect for the entire fiscal year. We will assess the adequacy
of corrective actions during FY 2001.

CONCLUSION

NRC complied with the requirements of the FMFIA for FY 2000. However, as in FY 1999, OIG
disagrees with NRC’s assessment that the absence of managerial cost accounting is not a
material weakness. This activity is intended to be an agency-wide function to better manage
NRC’s resources. NRC is giving priority attention to this issue. Inadequate management



       1
                      OIG Report 00A-04, Review of NRC’s Implementation of the Federal Managers’
                      Financial Integrity Act for Fiscal Year 1999, dated March 9, 2000.
       2
                      OIG Report 99A-12, Independent Auditors’ Report and Principal Statements for
                      the Year Ended September 30, 1999, dated February 28, 2000.
       3
                      OIG Report 99A-11, Review of NRC’s Implementation of the Federal Managers’
                      Financial Integrity Act for Fiscal Year 1998, dated March 3, 1999.
       4
                      OIG Report 98A-09, Independent Auditors’ Report and the Principal Statements
                      for the Year Ended September 30, 1998, dated March 1, 1999.

                                                2
controls over the license fee development process is a continuing material weakness for FY
2000 because the agency advised that corrective actions were not completed until FY 2001.

These issues are material to the agency as a whole, and therefore “merits the attention of the
Executive Office of the President,” as stated in MD 4.4.

AGENCY COMMENTS

On February 14, 2001, the CFO and the EDO responded to our draft report (Attachment I).
They disagreed that the lack of managerial cost accounting and management control
deficiencies over fee development are material weaknesses. OIG will continue to report these
issues as material weaknesses until the agency implements corrective actions.


SCOPE/CONTRIBUTORS

OIG evaluated the management controls related to the NRC’s implementation of FMFIA for
FY 2000, and conducted its work in January 2001, in accordance with generally accepted
Government auditing standards. This review was conducted by Anthony Lipuma.

If you have any questions or concerns regarding this report, please contact Anthony Lipuma
415-5910 or me at 415-5915.

Attachment: As stated

cc:    Commissioner Dicus
       Commissioner Diaz
       Commissioner McGaffigan
       Commissioner Merrifield
       John Craig, OEDO




                                               3
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      W. Travers, EDO
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                                    Attachment

AGENCY’S RESPONSE TO DRAFT REPORT
Document Location: G:\AUDIT\01-A-07\Final Memo Report FMFIA.wpd


Distribution
OIG Chron
AIGA Chron
File: 01-A-07
TLipuma


 OIG              OIG              OIG             OIG            OIG
 TLipuma          RIrish           SDingbaum       DLee           HBell
 02/ /01          02/ /01         02/ /01         02/ /01         02/ /01
                                OFFICIAL FILE COPY
